Nos. 19-1257, 19-1258
IN THE

~upreme Qtourt of tbe ffltntteb ~tateit
MARK BRNOVICH, IN HIS OFFICIAL CAPACITY AS
ARIZONA ATTORNEY GENERAL, ET AL.,

v.

Petitioners,

DEMOCRATIC NATIONAL COMMITTEE, ET AL.,

Respondents.

ARIZONA REPUBLICAN PARTY, ET AL.,

Petitioners,

V.

DEMOCRATIC NATIONAL COMMITTEE, ET AL.,

Respondents.

On Writ of Certiorari to the
United States Court of Appeals for the Ninth
Circuit
BRIEF OF THE NORTH CAROLINA, MEMPHIS, CENTRAL VIRGINIA, AND MIAMIDADE CHAPTERS OF THE A. PHILIP RANDOLF INSTITUTE AS AMICI CURIAE IN
SUPPORT OF RESPONDENTS
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the document contains
7,621 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 20, 2021.

Wilson-Epes Printing Co., Inc.

